No:
IN THE
SUPREME COURT OF THE UNITED STATES

JAMES MONSON,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
CERTIFICATE OF WORD COUNT
_________________
Pursuant to Rule 33.1(h) of the Rules of this Court, I certify that the
accompanying Petition for Certiorari, which was prepared using Century Schoolbook
12-point typeface, contains 5,707 words, excluding the parts of the document that are
exempted by Rule 33.1(d). This certificate was prepared in reliance on the word-count
function of the word-processing system (Microsoft Word) used to prepare the
document.
I declare under penalty of perjury that the foregoing is true and correct.
DATED: April 1, 2021
FEDERAL COMMUNITY DEFENDER
By:

s/Jonathan Epstein
Jonathan Epstein
613 Abbott St., Suite 500
Detroit, Michigan 48226
Telephone No. (313) 967-5840

